                                                       OFFICE OF INSPECTOR GENERAL
                                                                                   MEMORANDUM




DATE:          November 29, 2001

TO:            Chairman

FROM:          Inspector General

SUBJECT: Report on Government Information Security Reform Act Evaluation - Findings
         and Recommendations

The Office of Inspector General (OIG) has completed an evaluation of the Commission’s
Information Security program in accordance with the Government Information Security Reform
Act (Security Act). The Security Act requires that Inspectors General, or the independent
evaluators they choose, perform an annual evaluation of each agency’s information security
program and practices. We contracted with KPMG, LLP to perform the independent evaluation.

On September 5, 2001, we issued a report, entitled “FY 2001 Government Information Security
Reform Act Evaluation,” summarizing the results of our independent evaluation. As a result of
the independent evaluation, we have concluded that the Commission has a generally effective
information security program with acceptable practices for managing and safeguarding the
Federal Communications Commission’s (FCC’s) information technology assets. On September
10, 2001, our report, comprised of an executive summary and an independent evaluation, was
included in a package of information provided by the Commission to the Office of Management
and Budget (OMB).

However, during the independent evaluation, we identified areas for improvement in the FCC’s
information security management, operational and technical controls. The evaluation identified
sixteen (16) findings. Three (3) of the findings were determined to be high-risk1 and thirteen
(13) were determined to be medium risk. Findings occurred in the areas of management,
operational and technical information security controls. In our opinion, implementation of our


1      Each audit finding was evaluated to determine its degree of exposure based on the following risk ratings.
       High: Security risk can cause a business disruption, if exploited. Medium: Security risk in conjunction
       with other events can cause a business disruption, if exploited. Low: Security risk may cause operational
       annoyances, if exploited.
recommendations will strengthen the security of the Commission’s information security
program.
We are addressing these findings in the attached Special Review Report. I have attached a copy
of our report, entitled “FY 2001 Government Information Security Reform Act Evaluation,”
(Report No. 01-AUD-11-43) summarizing the findings that resulted from our evaluation of the
Commission’s information security program. This report is a byproduct of the independent
evaluation required by the Security Act.

Our recommendations will correct present problems and minimize the risk that future security
problems will occur in the FCC’s information security program. All recommendations contained
in the attached report will be tracked for reporting purposes by the OIG. Appendix A, Summary
of Findings, provides a summary of the findings from this review. Appendix B, Detailed
Findings and Recommendations, details the findings and recommendations from the review.

In its response, OMD indicated concurrence with each with each of the findings and
recommendations. OMD also attached a Program-Level Plan of Action and Milestones,
prepared by the Information Technology Center that resolves each finding and recommendation
and identifies corrective action that has been or will be taken. We have included a copy of the
response from OMD in its entirety as Appendix C to this report.

MMB also indicated concurrence with each with each of the findings and recommendations in its
response. We have included a copy of the response from MMB in its entirety as Appendix D to
this report.

Due to the sensitive nature of the information contained in the appendices, we have marked them
all “Non-Public – For Internal Use Only” and have limited distribution. Those persons receiving
this report are requested not to photocopy or otherwise distribute this material.




                                     H. Walker Feaster III

Attachment

cc:    Chief of Staff
       Managing Director
       Chief, Mass Media Bureau
       Chief Information Officer
       Computer Security Officer, ITC
       AMD-PERM
